                                     FINANCIAL STATEMENT
                                     AUDIT OF THE FEDERAL
                                       LABOR RELATIONS
                                          AUTHORITY
Office of Inspector General
         Financial Statement Audit




                                         Fiscal Year 2011
                                     Report No. AR-12-01
                                           November 2011



                                                         Federal Labor Relations Authority
                                     1400 K Street, N.W. Suite 250, Washington, D.C. 20424
            TABLE OF CONTENTS



INDEPENDENT AUDITOR’S REPORT

FINANCIAL SECTION
FINANCIAL SECTION
                               Federal Labor Relations Authority
                                      BALANCE SHEET
                                          (in dollars)
                             As of September 30, 2011 and 2010

                                                                    2011           2010
Assets:
  Intragovernmental:
    Fund balance with Treasury (Note 2)                            $6,532,013     $8,382,647
    Accounts receivable (Note 3)                                       17,021          8,868
    Advances and prepayments                                           11,212         21,659
  Total intragovernmental                                           6,560,246      8,413,174
  Accounts receivable from the public, net (Note 3)                     5,243          3,404
  General property and equipment, net (Note 4)                        525,753        716,672

Total Assets                                                       $7,091,242     $9,133,250

Liabilities:
  Intragovernmental:
    Accounts payable                                                 $210,917        $30,279
    Unfunded FECA liability (Note 5)                                  239,011        248,274
    Accrued payroll and benefits                                            0         13,170
    Custodial liability                                                    76             40
  Total intragovernmental                                             450,004        291,763
  Accounts payable                                                     21,764        117,213
  FECA actuarial liability (Note 5)                                 1,141,306      1,172,904
  Unfunded leave (Note 5)                                           1,513,590      1,437,695
  Accrued payroll and benefits                                      1,280,740      1,350,396
  Other (Note 6)                                                            4              0

Total Liabilities                                                  $4,407,408     $4,369,971

Net Position:
  Unexpended appropriations – other funds                          $5,016,802     $6,901,675
  Cumulative results of operations – other funds                    (2,332,968)    (2,138,396)

Total Net Position                                                 $2,683,834     $4,763,279

Total Liabilities and Net Position                                 $7,091,242     $9,133,250

The accompanying notes are an integral part of these statements.
                               Federal Labor Relations Authority
                                 STATEMENT OF NET COST
                                          (in dollars)
                     For the Years Ended September 30, 2011 and 2010

                                                                     2011            2010
Gross Program Costs:
 Authority:
   Intragovernmental costs                                          $3,869,249      $4,128,082
   Public costs                                                     11,498,999      11,547,207
      Total costs                                                   15,368,248      15,675,289
   Intragovernmental earned revenue                                      (5,580)         (4,413)
   Public earned revenue                                                 (4,398)         (3,467)
      Less: Total earned revenue                                         (9,978)         (7,880)

    Net Program Costs                                              $15,358,270     $15,667,409

  Office of the General Counsel:
   Intragovernmental costs                                                  $60           $420
   Public costs                                                     10,809,060      10,854,375
      Total costs                                                   10,809,120      10,854,795
   Intragovernmental earned revenue                                     (52,461)        (40,222)
   Public earned revenue                                                (13,924)        (10,692)
      Less: Total earned revenue                                        (66,385)        (50,914)

    Net Program Costs                                              $10,742,735     $10,803,881

  Federal Service Impasses Panel:
   Intragovernmental costs                                                   $0              $0
   Public costs                                                        689,940         692,832
      Total costs                                                      689,940         692,832
   Intragovernmental earned revenue                                      (1,527)         (1,206)
   Public earned revenue                                                   (797)           (612)
      Less: Total earned revenue                                         (2,324)         (1,818)

    Net Program Costs                                                $687,616        $691,014

  Net Cost of Operations                                           $26,788,621     $27,162,304

The accompanying notes are an integral part of these statements.
                           Federal Labor Relations Authority
                      STATEMENT OF CHANGES IN NET POSITION
                                      (in dollars)
                     For the Years Ended September 30, 2011 and 2010

                                                                     2011            2010
Cumulative Results of Operations:
 Beginning balance                                                 $(2,138,396)    $(1,991,129)

  Budgetary financing sources:
    Appropriations used                                            24,931,853      25,344,085
    Non-exchange revenue                                                    (4)             0
  Other financing sources (non-exchange):
    Transfers in/out without reimbursement                              (24,675)             0
    Imputed financing                                                1,686,875       1,670,952
  Total financing sources                                           26,594,049      27,015,037
  Net cost of operations                                           (26,788,621)    (27,162,304)
  Net change                                                          (194,572)       (147,267)

Cumulative Results of Operations                                   $(2,332,968)    $(2,138,396)

Unexpended Appropriations:
 Beginning balance                                                 $6,901,675      $9,048,592

  Budgetary financing sources:
    Appropriations received                                         24,773,000      24,773,000
    Other adjustments                                                (1,726,020)     (1,575,832)
    Appropriations used                                            (24,931,853)    (25,344,085)
  Total budgetary financing sources                                  (1,884,873)     (2,146,917)

Total Unexpended Appropriations                                    $5,016,802      $6,901,675

Net Position                                                       $2,683,834      $4,763,279

The accompanying notes are an integral part of these statements.
                                 Federal Labor Relations Authority
                            STATEMENT OF BUDGETARY RESOURCES
                                            (in dollars)
                           For the Years Ended September 30, 2011 and 2010

                                                                              2011           2010
Budgetary Resources:
  Unobligated balance, brought forward, October 1                             $4,876,678     $6,481,207
  Recoveries of prior year unpaid obligations                                     46,400        187,003
  Budget authority:
      Appropriation                                                           24,773,000     24,773,000
      Spending authority from offsetting collections
         Earned
            Collected                                                             81,238         52,146
            Change in receivables from Federal sources                            (2,555)         8,466
         Change in unfilled customer orders
            Without advance from Federal sources                                     647              0
  Total budget authority                                                      24,852,330     24,833,612
  Permanently not available                                                   (1,726,020)    (1,575,832)
Total Budgetary Resources                                                    $28,049,388    $29,925,990

Status of Budgetary Resources:
   Obligations incurred:
      Direct                                                                 $24,717,028    $24,988,700
      Reimbursable                                                                79,330         60,612
  Total obligations incurred                                                  24,796,358     25,049,312
   Unobligated balance:
      Apportioned                                                                 53,918         67,773
  Unobligated balance not available                                            3,199,112      4,808,905
Total Status of Budgetary Resources                                          $28,049,388    $29,925,990

Change in Obligated Balance:
  Obligated balance, net:
      Unpaid obligations, brought forward, October 1                          $3,514,395     $3,675,662
      Uncollected customer payments from Federal sources, brought forward,
       October 1                                                                  (8,466)             0
  Obligations incurred, net (Note 10)                                         24,796,358     25,049,312
  Gross outlays                                                              (24,978,891)   (25,023,576)
  Recoveries of prior year unpaid obligations, actual                            (46,400)      (187,003)
  Change in uncollected customer payments from Federal sources                     1,908         (8,466)
Total, Unpaid Obligated Balance, Net, End of Period                           $3,278,904     $3,505,929

  Unpaid obligations                                                           3,285,463      3,514,395
  Uncollected customer payments from Federal sources                              (6,559)        (8,466)
Total, Unpaid Obligated Balance, Net, End of Period                           $3,278,904     $3,505,929

Net Outlays:
  Gross outlays                                                              $24,978,891    $25,023,576
  Offsetting collections                                                         (81,238)       (52,146)
  Net Outlays                                                                $24,897,653    $24,971,430


The accompanying notes are an integral part of these statements.
NOTES TO THE FINANCIAL STATEMENTS

Note 1: Significant Accounting Policies
(a) Reporting Entity – The FLRA is an independent administrative Federal agency created by
    Title VII of the Civil Service Reform Act of 1978, with a mission to carry out five statutory
    responsibilities: (1) determining the appropriateness of units for labor organization
    representation; (2) resolving complaints of unfair labor practices; (3) adjudicating exceptions
    to arbitrators’ awards; (4) adjudicating legal issues relating to duty to bargain; and (5)
    resolving impasses during negotiations. The agency consists of three components: the
    Authority, the Office of the General Counsel, and the Federal Service Impasses Panel.

(b) Basis of Accounting and Presentation – The financial statements have been prepared to
    report the financial position, net cost of operations, changes in net position, and budgetary
    resources of the FLRA in accordance with the Chief Financial Officers Act of 1990, the
    Government Management Reform Act of 1994, and the Accountability of Tax Dollars Act of
    2002. The statements have been prepared from agency financial records in accordance with
    U.S. Generally Accepted Accounting Principles (GAAP), in accordance with guidance issued
    by the Federal Accounting Standards Advisory Board (FASAB) and the Office of
    Management and Budget (OMB), as prescribed in OMB Circular A-136, Financial
    Reporting Requirements, and pursuant to the requirements of 31 U.S.C. 3515(b). These
    financial statements include all funds and accounts under the control of the FLRA.

   The accounting structure of Federal agencies is designed to reflect both accrual and
   budgetary accounting transactions. Under the accrual method of accounting, revenues are
   recognized when earned and expenses are recognized when incurred, without regard to the
   receipt or payment of cash. The budgetary accounting principles, on the other hand, are
   designed to recognize the obligation of funds according to legal requirements, which in many
   cases occurs before an accrual-based transaction takes place. The recognition of budgetary
   accounting transactions is essential for compliance with legal constraints and controls over
   the use of Federal funds. The accompanying financial statements are prepared on the accrual
   basis of accounting.

(c) Budget Authority – The Congress passes appropriations annually that provide the FLRA
    with authority to obligate funds for necessary salaries and expenses to carry out mandated
    program activities. These funds are available until expended, subject to OMB apportionment
    and to Congressional restrictions on the expenditure of funds. Also, the FLRA places
    internal restrictions on fund expenditures to ensure the efficient and proper use of all funds.

(d) Fund Balance with Treasury – FLRA receipts and disbursements are processed by the U.S.
    Treasury Department. Fund balances with Treasury consist of appropriated funds that are
    available to pay current liabilities and to finance authorized purchase commitments. No cash
    is held in commercial bank accounts.

(e) Accounts Receivable – Accounts receivable consists of amounts due from other Federal
    entities and from current and former employees and vendors. Amounts due from the public
   are stated net of an allowance for uncollectible accounts that is based on an analysis of
   outstanding receivables balances and past collection experience. No allowance is established
   for intragovernmental receivables, as they are considered fully collectible from other Federal
   agencies.

(f) General Property and Equipment (P&E) – This category consists of equipment and internal
    use software. The basis for recording purchased P&E is full cost, including all costs incurred
    to bring FLRA P&E to and from a location suitable for its intended use. P&E is depreciated
    using the straight-line method over the estimated useful life of the asset. SFFAS No. 10,
    Accounting for Internal Use Software, provides accounting standards for internal use
    software used by each agency. The standards provide for capitalized property to continue to
    be reported on the Balance Sheet. P&E that are not capitalized because they are under the
    capitalization threshold are expensed in the year of acquisition.

   Major alterations and renovations are capitalized, while maintenance and repair costs are
   charged to expense as incurred. Capitalization threshold levels were changed during FY
   2010. FLRA’s capitalization threshold was $3,500 for individual purchases. Bulk purchases
   of similar items which individually were worth less than $3,500, but collectively were worth
   more than $30,000, were also capitalized using the same general P&E categories and useful
   lives as capital acquisitions. Effective in FY 2010, the capitalization threshold for individual
   items changed to $25,000. Bulk purchases of similar items which individually are worth less
   than $25,000, but collectively are worth more than $100,000, are now also capitalized using
   the same general P&E categories and useful lives as capital acquisitions. Also,
   building/leasehold improvements of $25,000 are now capitalized.

                            General P&E Category               Service Life
                      Software                                3 years
                      Computer equipment                      5 years
                      Office equipment                        7 years
                      Office furniture                        15 years
                      Leasehold improvements                  Life of lease

(g) Liabilities – Liabilities represent the amount of monies or other resources likely to be paid by
    FLRA as a result of transactions or events that have already occurred. No liability can be
    paid, however, absent an appropriation. Liabilities for which an appropriation has not been
    enacted are, therefore, classified as not covered by budgetary resources, and there is no
    certainty that the appropriation will be enacted. Also, the Federal government, acting in its
    sovereign capacity, can abrogate liabilities other than contracts. Liabilities that are covered
    by budgetary resources consist of intragovernmental and public accounts payable and
    accrued funded payroll. Liabilities not covered by budgetary resources in FY 2010 and FY
    2011 consist of accrued and actuarial Federal Employees Compensation Act (FECA)
    compensation and unfunded employee leave.
(h) FECA Liabilities – An accrued FECA liability is recorded for actual and estimated future
    payments to be made for workers’ compensation pursuant to the FECA. The actual costs
    incurred are reflected as a liability because agencies will reimburse the U.S. Department of
    Labor (DOL) two years after the actual payment of expenses. Future revenues will be used
    for their reimbursement to the DOL. The liability consists of: (1) the net present value of
    estimated future payments calculated by the DOL; and (2) the un-reimbursed cost paid by the
    DOL for compensation to recipients under the FECA.

   An estimated actuarial liability for future workers’ compensation benefits is included. The
   liability estimate is based on the DOL’s FECA actuarial model that takes the amount of
   benefit payments over the last twelve quarters and calculates the annual average of payments
   for medical expenses and compensation. This average is then multiplied by the liabilities-to-
   benefits paid ratios for the whole FECA program for FY 2011. The ratios may vary from
   year to year as a result of economic assumptions and other factors, but the model calculates a
   liability approximately eleven times the annual payments.

(i) Annual, Sick and Other Leave – Amounts associated with the payment of annual leave are
    accrued while leave is being earned by employees, and this accrual is reduced as leave is
    taken. Each year the balance in the accrued annual leave account is adjusted to reflect
    current pay rates. To the extent that current or prior year appropriations are not available to
    finance annual leave, future financing sources will be used. Sick leave and other types of
    non-vested leave are expensed as taken. Any liability for sick leave that is accrued but not
    taken by a Civil Service Retirement System (CSRS)-covered employee is transferred to the
    Office of Personnel Management (OPM) upon the retirement of that individual. No credit is
    given for sick leave balances upon the retirement of Federal Employees Retirement System
    (FERS)-covered employees.

(j) Accounts Payable and Other Accrued Liabilities – Accounts payable and accrued liabilities
    represent a probable future outflow or other sacrifices of resources as a result of past
    transactions or events. Liabilities are recognized when they are incurred, regardless of
    whether they are covered by available budgetary resources. FLRA liabilities cannot be
    liquidated without legislation that provides resources to do so.

(k) Net Position – The components of net position are unexpended appropriations and
    cumulative results of operations. Unexpended appropriations include undelivered orders and
    unobligated balances. Unobligated balances are the amount of appropriations or other
    authority remaining after deducting the cumulative obligations from the amount available for
    obligation. The cumulative results of operations represent the net results of operations since
    inception, the cumulative amount of prior-period adjustments, the remaining book value of
    capitalized assets, and future funding requirements.

(l) Retirement Plans – The FLRA’s employees participate in the CSRS or the FERS. For CSRS
    employees, hired prior to January 1, 1984, the FLRA withholds seven percent of each
    employee’s salary and contributes seven percent of the employee’s basic salary to the CSRS
    Retirement and Disability Fund. These employees may also contribute, on a tax-deferred
    basis, to a defined contribution plan – the Thrift Savings Plan (TSP). In 2010, the regular
   IRS limit was $16,500; that limit remained at $16,500 for 2011. The FLRA is not required to
   and does not contribute any matching amounts for CSRS employees.

   The FERS was established by enactment of Public Law 99-335. Pursuant to this law, the
   FERS and Social Security automatically cover most employees hired after December 31,
   1983. Employees hired before January 1, 1984 elected either to join the FERS and Social
   Security or to remain in the CSRS. For FERS employees, the FLRA withholds 6.2 percent in
   old age survivors and disability insurance up to a specified wage ceiling and 0.8 percent of an
   employee’s gross earnings for retirement. In FY 2011, the FLRA matched the retirement
   withholdings with a contribution equal to 11.2 percent of the employee’s taxable salary.

   All employees are eligible to contribute to the TSP. For employees under the FERS, a TSP
   account is automatically established. The FLRA is required to make a mandatory
   contribution of one percent of the base salary for each employee under the FERS. The
   agency is required to match the employee’s contribution up to a maximum of five percent of
   his or her salary. Matching contributions are not made to the TSP accounts established by
   CSRS employees. The FLRA does not report on its financial statements information
   pertaining to the retirement plans covering its employees. Reporting amounts such as plan
   assets, accumulated plan benefits, and related unfunded liabilities, if any, is the responsibility
   of the OPM.

   FERS employees and certain CSRS reinstatement employees are eligible to participate in the
   Social Security program after retirement. CSRS employees who are 65 or older are eligible
   for Social Security payments (even if they have not retired). In these instances, the FLRA
   remits the employer’s share of the required contribution.

(m) Imputed Financing from Costs Absorbed by Others – The FASAB’s SFFAS Number 5,
    Accounting for Liabilities of the Federal Government, requires that employer agencies
    recognize the full cost of pensions, health, and life insurance benefits, during their
    employees’ active years of service. The OPM, as administrator of the CSRS and FERS
    plans, the Federal Employees Health Benefits Program, and the Federal Employees Group
    Life Insurance Program, must provide the “cost factors” that adjust the agency contribution
    rate to the full cost for the applicable benefit programs. An imputed financing source and
    corresponding imputed personnel cost is reflected in the Statement of Changes in Net
    Position and the Statement of Net Cost, respectively.

(n) Revenue and Other Financing Sources – The FLRA’s revenues are derived from
    reimbursable agreements (exchange) and direct, annual appropriation (financing source).
    The FLRA recognizes reimbursable work agreement revenue when earned, i.e., goods that
    have been delivered or services that have been rendered. Each reimbursable work
    agreement specifies the dollar value of the agreement and is based on estimated resources
    needed to perform the specified services, whether it is personnel services to include base
    pay, overtime and benefits, or travel and per diem.

    The agency receives an annual Salaries and Expenses appropriation from the Congress.
    Annual appropriations are used, within statutory limits, for salaries and administrative
    expenses and for operating and capital expenditures for essential personal property.
    Appropriations are recognized as non-exchange revenues at the time the related program or
    administrative expenses are incurred. Appropriations expended for capitalized property and
    equipment are recognized as expenses when an asset is consumed in operations. The annual
    appropriation for both FY 2010 and FY 2011 was $24,773,000. The appropriation for FY
    2011, however, was reduced by $49,546 pursuant to a 0.2 percent across-the-board
    rescission included in Public Law 112-10.

(o) Expired Accounts and Cancelled Authority – Unless otherwise specified by law, annual
    authority expires for incurring new obligations at the beginning of the subsequent fiscal
    year. The account into which the annual authority is placed is called the expired account.
    For five fiscal years, the expired account is available for expenditure to liquidate valid
    obligations incurred during the unexpired period. Adjustments are allowed to increase or
    decrease valid obligations incurred during the unexpired period but not previously reported.
    At the end of the fifth expired year, the expired account is cancelled and any remaining
    money is returned to the Treasury.

(p) Transactions with Related Parties – In the course of its operations, the FLRA has
    relationships and conducts financial transactions with numerous Federal agencies. The most
    prominent of these relationships are with the Treasury, the U.S. Department of Health and
    Human Services, the U.S. Department of the Interior’s National Business Center, and the
    General Services Administration.

(q) Contingencies – A contingency is an existing condition, situation, or set of circumstances
    involving uncertainty as to possible gain or loss to the agency. The uncertainty will
    ultimately be resolved when one or more future events occur or fail to occur. With the
    exception of pending, threatened, or potential litigation, a contingent liability is recognized
    when a past transaction or event has occurred, a future outflow or other sacrifice of
    resources is more likely than not, and the related future outflow or sacrifice of resources is
    measurable. For pending, threatened, or potential litigation, a liability is recognized when a
    past transaction or event has occurred, a future outflow or other sacrifice of resources is
    likely, and the related future outflow or sacrifice of resources is measurable.

(r) Use of Estimates – The preparation of financial statements in conformity with GAAP
    requires management to make estimates and assumptions that affect the reported amounts of
    assets and liabilities and disclosure of contingent liabilities at the date of the financial
    statements as well as the reported amounts of revenues and expenses during the reporting
    period. Actual results could differ from those estimates.

(s) Advances and Prepayments – Advance payments are generally prohibited by law. There
    are some exceptions, such as reimbursable agreements, subscriptions, and payments to
    contractors and employees. Payments made in advance of the receipt of goods and services
    are recorded as advances or prepayments at the time of the prepayments and recognized as
    expenses when the related goods and services are received.
Note 2: Fund Balance with Treasury
U.S. government cash is accounted for on an overall consolidated basis by the Treasury. The
amounts shown on the Balance Sheet represent the FLRA’s right to draw on the Treasury for
valid expenditures. The fund balance as shown on the FLRA records is reconciled monthly with
records from the Treasury.

                                 Fund Balance with Treasury
                     As of September 30,           2011               2010
                     General funds                $6,531,934      $8,382,607
                     Other fund types                     79                 40
                     Total                        $6,532,013      $8,382,647

                             Status of Fund Balance with Treasury
          As of September 30,                                  2011               2010
          Unobligated balance available                        $53,918             $67,773
          Unobligated balance unavailable                    3,199,112            4,808,905
          Obligated balance not yet distributed              3,278,904            3,505,929
          Non-budgetary fund balance with Treasury                    79                 40
          Total                                           $6,532,013          $8,382,647

Note 3: Accounts Receivable, Net
The reported amount for accounts receivable consists of amounts owed to the FLRA by other
Federal agencies (intragovernmental) and the public.

                                   Accounts Receivable, Net
                  As of September 30,                 2011              2010
                  From Federal agencies, net           $17,021               $8,868
                  From the public, net                    5,243               3,404
                  Total                                $22,264             $12,272
                          Amounts Due from Other Federal Agencies
        As of September 30,                                         2011              2010
        Department of Agriculture                                           $0          $2,236
        Department of Defense                                          1,123                1,451
        Department of Energy                                                 0               754
        Department of Homeland Security                                      0               850
        Department of Justice                                              407               632
        Department of Transportation                                         0               291
        Department of Veterans Affairs                                       0              2,654
        Environmental Protection Agency                                1,096                   0
        United States Postal Service                                  14,395                   0
        Total                                                        $17,021            $8,868

Note 4: General Property and Equipment, Net

                                                                             2011 Net         2010 Net
                               Service      Acquisition Accumulated            Book             Book
       Category                  Life         Value     Depreciation          Value            Value
Software                     3 years          $258,957    $(258,957)               $0                $0
Computer equipment           5 years            497,616         (398,817)          98,799      100,035
Office equipment             7 years            541,272         (368,620)         172,652      245,681
Office furniture             15 years           526,039         (378,133)         147,906      223,015
Leasehold improvements Life of lease            428,172         (321,776)         106,396      147,941
Total                                        $2,252,056      $(1,726,303)        $525,753     $716,672

Note 5: Liabilities Not Covered By Budgetary Resources
Unfunded FECA liabilities consists of workers’ compensation claims payable to the DOL, which
will be funded in a future period, and an unfunded estimated liability for future workers’
compensation claims based on data provided from the DOL. The actuarial calculation is based
on benefit payments made over twelve quarters, and calculates the annual average of payments.
For medical expenses and compensation, this average is then multiplied by the liability-to-
benefit paid ratio for the whole FECA program.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. At
year-end, the balance in the unfunded leave account is adjusted to reflect the liability at current
pay rates and leave balances. Unfunded leave is paid from future funding sources and,
accordingly, is reflected as a liability not covered by budgetary resources. Sick and other leave
is expensed as taken. All other liabilities are considered to be covered by budgetary resources.
                       Liabilities Not Covered By Budgetary Resources
     For the Years ended September 30,                            2011             2010
     Intragovernmental – Unfunded FECA liabilities                $239,011         $248,274
     Federal employee benefits – FECA actuarial liability         1,141,306     1,172,904
     Unfunded leave                                               1,513,590     1,437,695
     Total                                                       $2,883,907    $2,858,873

Note 6: Other Liabilities
Other liabilities in FY 2011 include interest payment from a customer agency for reimbursable
travel. Payment was deposited into the Treasury’s General Fund Interest Account.

Note 7: Leases
The FLRA has operating leases for rental of office space and office equipment. As a Federal
agency, the FLRA is not liable for any lease terms beyond one year. The agency anticipates that
space levels consistent with FY 2011 will be required for the next five years.

                              Future Minimum Lease Payments
                      FY         Equipment         Building           Total
               2012                   $15,869       $2,254,907        $2,270,776
               2013                    15,869        2,363,781         2,379,650
               2014                    15,869        2,461,114         2,476,983
               2015                      6,086       2,407,314         2,413,400
               2016                          0       2,329,077         2,329,077
               Thereafter                    0      14,971,777        14,971,777
               Total                  $53,693      $26,787,970      $26,841,663

Note 8: Commitments and Contingencies
The FLRA is a party in various administrative proceedings, legal actions, and claims brought by
or against the agency. In the opinion of FLRA management, the ultimate resolution of
proceedings, actions, and claims, will not materially affect financial position or results of
operations of the FLRA. The agency has examined its obligations related to cancelled FY 2006
authority and believes that it will not have outstanding commitments that will require future
resources.
Note 9: Intragovernmental Costs and Exchange Revenue
The classification of revenue or cost defined as "intragovernmental" or "with the public" is
defined on a transaction by transaction basis. Preceding transactions in the lifecycle of a product
will not have an impact on subsequent transactions. If the FLRA purchases goods or services
from another Federal entity, capitalizes them into inventory, and later resells them to the public,
the cost of the original purchase of resale assets from the other Federal entity will be classified as
"intragovernmental" at the time of the purchase. At ultimate sale to the end user, the resulting
cost of goods will be classified as "with the public." The purpose of this classification is to
enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.

Note 10: Apportionment Categories of Obligations Incurred: Direct Versus
Reimbursable Obligations

                                       Obligations Incurred
          For the Years Ended September 30,                    2011              2010
          Direct obligations – Category A                   $24,717,028       $24,988,700
          Reimbursable obligations – Category A                   79,330            60,612
          Total                                             $24,796,358       $25,049,312

Note 11: Undelivered Orders at the End of the Period
The amount of budgetary resources obligated for undelivered orders at the end of September 30,
2011 and 2010 is $1,772,040 and $2,003,337, respectively.

Note 12: Explanation of Differences between the SBR and the Budget of the
U.S. Government
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting, calls for explanation of material differences
between amounts reported in the Statement of Budgetary Resources and the actual balances
published in the Budget of the U.S. Government (the President’s Budget). The FY 2012
President’s Budget, with actual amounts for FY 2010, has been reconciled to the Statement of
Budgetary Resources. The FY 2013 President’s Budget, with actual amounts for FY 2011, will
not be published until February 2012.

Note 13: Reconciliation of Net Cost to Budget
Details of the relationship between budgetary resources obligated and the net costs of operations
for the fiscal years ended September 30, 2011 and 2010 are shown in the table on the following
page.
                          Reconciliation of Net Cost to Budget
For the Years Ended September 30,                                 2011          2010

Resources Used to Finance Activities:
 Obligations incurred                                         $24,796,358 $25,049,312
 Spending authority from offsetting collections:
   Collected                                                       (81,238)      (52,146)
   Change in receivable from Federal sources                          (647)       (8,466)
 Recoveries of prior year unpaid obligations                       (46,400)     (187,003)
 Transfers in/out without reimbursement                            (24,675)            0
 Imputed financing sources                                       1,686,875     1,670,952
 Other                                                                  (4)            0

Total Resources Used to Finance Activity                      $26,330,269 $26,472,649

Resources Used That Do Not Fund Net Cost of Operations:
 Change in unfilled customer orders                                   $647            $0
 Change in undelivered orders                                      241,745       535,181
 Current-year capitalized purchases                                (29,789)            0
 Other resources/adjustments that do not affect net cost of
                                                                          0     (278,891)
  operations
Components of the Net Cost of Operations Which Do Not
Generate or Use Resources in the Reporting Period:
 Change in receivables                                               (9,992)        8,466
 Other financing sources not in the budget                       (1,686,875)   (1,670,952)
 Depreciation and amortization                                      220,707       215,297
 Future funded expenses                                              66,632       142,654
 Imputed costs                                                    1,686,875     1,670,952
 Other expenses not requiring budgetary resources                   (31,598)       66,948

Net Cost of Operations                                        $26,788,621 $27,162,304
 CONTACTING THE OFFICE OF
   INSPECTOR GENERAL


                                                                        Office of Inspector General
IF YOU BELIEVE AN ACTIVITY IS WASTEFUL,
FRAUDULENT, OR ABUSIVE OF FEDERAL FUNDS,




                                                                                 Financial Statement Audit
CONTACT THE:




HOTLINE (800)331-3572
HTTP://WWW.FLRA.GOV/OIG-HOTLINE




EMAIL: OIGMAIL@FLRA.GOV
CALL: (202)218-7970 FAX: (202)343-1072
WRITE TO: 1400 K Street, N.W. Suite 250,         Washington,
D.C. 20424




The complainant may remain confidential; allow their name to be
used; or anonymous. If the complainant chooses to remain
anonymous, FLRA OIG cannot obtain additional information on the
allegation, and also cannot inform the complainant as to what
action FLRA OIG has taken on the complaint. Confidential status
allows further communication between FLRA OIG and the
complainant after the original complaint is received. The identity of
complainants is protected under the provisions of the Whistleblower
Protection Act of 1989 and the Inspector General Act of 1978. To
learn more about the FLRA OIG, visit our Website at
http://www.flra.gov/oig
